<html>
<title> - HISTORIC PRESERVATION OF THE PEOPLING OF AMERICA</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





            HISTORIC PRESERVATION OF THE PEOPLING OF AMERICA

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 20, 2004

                               __________

                           Serial No. 108-230

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
96-945                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          ------ ------
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
NATHAN DEAL, Georgia                 ELIJAH E. CUMMINGS, Maryland
JOHN M. McHUGH, New York             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                WM. LACY CLAY, Missouri
DOUG OSE, California                 LINDA T. SANCHEZ, California
JO ANN DAVIS, Virginia               C.A. ``DUTCH'' RUPPERSBERGER, 
JOHN R. CARTER, Texas                    Maryland
MARSHA BLACKBURN, Tennessee          ELEANOR HOLMES NORTON, District of 
PATRICK J. TIBERI, Ohio                  Columbia
                                     ------ ------

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
                 Alena Guagenti, Legislative Assistant
                           Malia Holst, Clerk
                     Tony Haywood, Minority Counsel

                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 20, 2004.....................................     1
Statement of:
    Matthews, Janet Snyder, Associate Director for Cultural 
      Resources, National Park Service...........................    17
    Toy, Katherine, executive director, Angel Island Immigration 
      Station Foundation; Ellen Von Karajan, executive director, 
      the Society for the Preservation of Federal Hill and Fell's 
      Point, board member, Baltimore Immigration Project; and 
      Kathryn E. Wilson, director, education and interpretation, 
      the Historical Society of Pennsylvania.....................    39
Letters, statements, etc., submitted for the record by:
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............     9
    Matthews, Janet Snyder, Associate Director for Cultural 
      Resources, National Park Service, prepared statement of....    20
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     4
    Toy, Katherine, executive director, Angel Island Immigration 
      Station Foundation, prepared statement of..................    43
    Von Karajan, Ellen, executive director, the Society for the 
      Preservation of Federal Hill and Fell's Point, board 
      member, Baltimore Immigration Project, prepared statement 
      of.........................................................    62
    Wilson, Kathryn E., director, education and interpretation, 
      the Historical Society of Pennsylvania, prepared statement 
      of.........................................................    77

 
            HISTORIC PRESERVATION OF THE PEOPLING OF AMERICA

                              ----------                              


                         THURSDAY, MAY 20, 2004

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2154, Rayburn House Office Building, Hon. Mark Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder, Cummings, and Norton.
    Staff present: J. Marc Wheat, staff director and chief 
counsel; Alena Guagenti, legislative assistant; Malia Holst, 
clerk; Tony Haywood, minority counsel; and Jean Gosa, minority 
assistant clerk.
    Mr. Souder. The subcommittee will come to order.
    Good afternoon and thank you all for coming. Today's 
hearing will examine the historic preservation of the story of 
immigration, migration and settlement of the population of the 
United States. The peopling of America. This is a facet of our 
history that strikes a chord with many Americans, because it so 
closely relates to our personal histories as Americans and how 
our families came to be here.
    Recent years have seen a boom in America's interest in 
family history. A poll conducted in 2000 found that 
approximately 60 percent of the U.S. population is interested 
in family history, and that about 35 million people had 
conducted family history research on line. One of the gems in 
my district is the Historical Genealogy Department at the Allen 
County Public Library.
    With its renowned collection of historical records, every 
year the library's Genealogy Research Center serves over 
100,000 researchers who come from all 50 States as well as from 
foreign countries to discover their family roots. In fact, it's 
second to Salt Lake City. They search for information about the 
places where their families entered the United States, trace 
their paths as they moved through their new land and uncover 
the places where they settled and made their new homes. They 
discover their family's role in the peopling of America.
    At some point, all Americans traveled to this country from 
another land. The story of how people immigrated to this 
country, migrated within it and settled in communities is not 
only an important part of our personal family histories, it's 
an important part of our national history as well. It is part 
of the story of many people coming together to form this great 
country of ours, as our national motto expresses, E Pluribus 
Unum, from many, one.
    How do we preserve this part of American history and 
educate future generations about it? Because the history of the 
peopling of America is very much embedded with a sense of 
place, the ports of entry where people came into the United 
States, the route they journeyed along as they moved within the 
country, the communities where they settled, one of the primary 
ways we commemorate it is by preserving those places that are 
of particular significance to our national story.
    As the guardian of many of our Nation's historic places, 
the National Park Service has a crucial role in preserving the 
history of the peopling of America. Many of us have been to or 
at least know of Ellis Island, part of the Statute of Liberty 
National Monument in New York. Over 12 million immigrants 
entered the United States at Ellis Island between 1892 and 
1954, and the exhibits and programs there now mark an important 
period in the peopling of America. Other National Park Service 
units, from the Bering Land Bridge National Preserve in Alaska, 
to the Mormon Pioneer National Historic Trail, to Gloria Dei 
Church National Historic Site, originally built by 17th century 
Swedish colonists in what is now Philadelphia, preserve 
elements of the history of the peopling of America.
    In its revised thematic framework, adopted in 1994, the 
National Park Service identified ``peopling places,'' human 
population and change, as one of eight primary themes for 
preserving and interpreting American history. The Park Service 
has explored various aspects of this theme, not only through 
interpretation at individual park units, but also by connecting 
related sites through educational and research programs. For 
instance, the National Register of Historic Places' program 
Teaching with Historic Places, which incorporates historic 
sites listed on the National Register into educational 
materials, has created lesson plans on such subjects as 
``Immigration,'' ``Pioneer America,'' ``Westward Expansion,'' 
and several ethnic studies.
    Yet with the importance of the peopling of America to our 
national history, we should examine if historic sites can be 
still better linked through resources such as educational 
materials and heritage tourism products to increase public 
awareness of these historic places and promote education on 
American history. Are there heritage tourism products available 
for people interested in this history, so they can visit sites 
related to the peopling of America? Are comprehensive lists of 
historic sites that interpret themes of immigration, migration 
and settlement available for people who wish to learn more 
about the places that tell this story?
    We also should consider how sites significant to the 
peopling of America are identified and preserved. Even though 
there are over 77,000 listings on the National Register of 
Historic Places, sites associated with a broad range of 
cultures are not well represented. Even designated sites can be 
in danger of being lost. Just 5 years ago, the National Trust 
for Historic Preservation listed the Angel Island Immigration, 
a National Historic Landmark often referred to as the Ellis 
Island of the West, as one of America's 11 most endangered 
places. What about sites that have no designation? We need to 
identify where these gaps in historic preservation are and take 
steps to ensure that nationally significant sites are 
protected.
    How do we identify important sites and establish their 
significance? What partnerships can be formed to preserve and 
interpret them? What is the role of the National Park Service 
in this historic preservation and how are State, local and 
private entities also engaged in this work? These are valuable 
questions for us to ask as we examine how we can best preserve 
this part of our Nation's history.
    Today we are pleased to hear from Dr. Janet Snyder 
Matthews, Associate Director for Cultural Resources for the 
National Park Service. I look forward to learning more about 
the Park Service's sites and programs that can help tell the 
story of the peopling of America and discussing the Park 
Service's continued role in preserving this important part of 
American history.
    Private organizations and individuals have often been vital 
actors in preserving historic sites and structures. Today we 
are pleased to hear from witnesses who will discus community 
efforts and interest in preserving the history of the peopling 
of America. We welcome Katherine Toy, executive director of 
Angel Island Immigration Station Foundation in San Francisco, 
CA; Ellen Von Karajan, executive director of the Society for 
Preservation of Federal Hill and Fell's Point in Baltimore, MD 
and a board member of the Baltimore Immigration Project; and 
Kathryn Wilson, the director of education and interpretation at 
the Historical Society of Pennsylvania. Arnaldo Ramos, who 
works with the cultural communities here in Washington, DC, was 
invited to testify, but is ill and unable to attend the hearing 
today. He will be submitting a written statement for the 
record.
    We thank everyone for joining us today for this important 
hearing.
    This is our first subcommittee hearing on national parks 
and public lands oversight, which this subcommittee gained 
jurisdiction over in the last negotiation over committee 
assignments. This also has as a foundational background in a 
bill that Senator Akaka introduced and then I introduced in the 
House dealing with the peopling of America. It passed several 
times, but is now bound up again, because it got caught twice 
in the legislative log jam at the end of the year. And we're in 
the process of rewriting that bill and hope to move something 
yet this year. Part of the goal of this hearing is to define 
and better define the goals of that legislation, how we 
identify sites that are still missing and develop this type of 
program.
    So that's the background of today's hearing, and we will be 
working with the National Park's authorizing committee, of 
which I am a member as well.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T6945.001
    
    [GRAPHIC] [TIFF OMITTED] T6945.002
    
    [GRAPHIC] [TIFF OMITTED] T6945.003
    
    Mr. Souder. I now yield to the ranking member, Mr. 
Cummings.
    Mr. Cummings. I want to thank you, Mr. Chairman, for 
holding this hearing. The National Park Service indeed plays a 
very vital role in preserving and telling the story of our 
Nation's history.
    It was just Monday, Mr. Chairman, that I joined President 
Bush at a presentation that was actually done by the Park 
Service in Topeka, KS. It was one of the finest presentations I 
have seen in my life. They have done a remarkable job of 
overseeing the renovation of the school that was at issue in 
Brown v. Board of Education. It's a beautiful sight, and it 
certainly addresses of the time very frankly and all kinds of 
exhibits.
    I want to take this moment to publicly say to all of our 
Park Service friends that it is so important, and we thank you. 
Sometimes our history is not always pretty, but it needs to be 
told, and to be accurate. I think you've done an outstanding 
job, and I hope that you'll pass that on to your colleagues.
    Although the Park Service is best known for its maintenance 
of U.S. parks, more than half of the units within the Service 
are cultural sites commemorating facets of the country's 
history. The Service also administers the National Historic 
Landmarks Program to recognize nationally significant cultural 
resources outside the Park Service. The Park Service's thematic 
framework is a conceptual tool for evaluating the significance 
of cultural resources, such as historical buildings and other 
physical sites within and outside the Service. The framework 
outlines major themes that help to conceptualize American 
history. It is also used to identify historical sites of 
significance and to describe and analyze the multiple layers of 
history embodied within the site.
    The first thematic framework was adopted in 1936, conceived 
in terms of ``stages of American progress,'' it focused 
primarily on the achievements of military and political 
figures. Revisions in 1970 and 1987 added chronological and 
topical detail and also increased the number of themes and sub-
themes, but did not alter the framework's basic 
conceptualization of the past. In 1990, however, Congress 
passed legislation directing the Park Service to revise its 
thematic framework to reflect contemporary trends in 
scholarship and research on American history and culture. 
Academic scholars and Park Service professionals convened in 
1993 to develop a revised framework.
    The revised thematic framework they devised sets forth 
eight themes that present a larger and more integrated view of 
history. The themes stress interplay of race, ethnicity, class 
and gender within and among the framework's broadened topics. 
First among the eight themes in the revised framework is 
peopling places. The peopling theme examines human population 
movement in a change through prehistoric and historic times, 
focusing on immigration, migration and settlement. It also 
looks at family formation and different concepts of gender, 
family and sexual division of labor.
    Today's hearing offers a valuable opportunity to assess the 
extent to which the National Park Service has succeeded in 
infusing the peopling places theme into all relevant Park 
Service programs. Although significant progress has been made 
in identifying and preserving sites that relate to a broader 
range of peopling stories, concerns remain about the under-
representation of sites associated with various population 
groups on the National Register of Historic Places. In 
addition, given that peopling is discussed in terms of 
immigration, migration and settlement, it is important to 
clarify the extent to which the theme embraces the importation 
of people as chattel to the Americans during the African slave 
trade, and whether relevant sites are being preserved to 
interpret the major dimension of America's multi-faceted 
peopling story.
    Today we will hear from the National Park Service 
concerning their efforts to express the revised thematic 
framework through their preservation and educational 
activities. We will also hear from individuals in the private 
sector who are playing an important part in preservation and 
educational efforts related to places and stories that have not 
received due attention in the past.
    I am especially pleased that Ellen Von Karajan joins us 
today to discuss her efforts to preserve and tell the story of 
Baltimore's role as perhaps America's second largest gateway 
for immigrants. Mr. Chairman, it is of greatest importance that 
the history of this country be preserved for our own benefit, 
and that for generations yet unborn. Our Nation's historic 
sites are invaluable story telling devices. Working to expand 
the range of cultural resources we identify and preserve will 
ensure that our history will be told more accurately, vividly 
and comprehensively.
    So I thank you for holding this hearing today and I look 
forward to the testimony of our witnesses. With that, I yield 
back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T6945.004

[GRAPHIC] [TIFF OMITTED] T6945.005

[GRAPHIC] [TIFF OMITTED] T6945.006

[GRAPHIC] [TIFF OMITTED] T6945.007

[GRAPHIC] [TIFF OMITTED] T6945.008

[GRAPHIC] [TIFF OMITTED] T6945.009

[GRAPHIC] [TIFF OMITTED] T6945.010

[GRAPHIC] [TIFF OMITTED] T6945.011

    Mr. Souder. I thank the gentleman.
    I ask unanimous consent that all Members have 5 legislative 
days to submit written statements and questions for the hearing 
record, and any answers to written questions provided by the 
witnesses also be included in the record. Without objection, so 
ordered.
    I also ask unanimous consent that all exhibits, documents 
and other materials referred to by Members and the witnesses 
may be included in the hearing record, that all Members be 
permitted to revise and extend their remarks. Without 
objection, so ordered.
    It is the tradition and more or less agreed-upon 
requirement of this committee and our standard practices that 
witnesses have to testify under oath, as an oversight 
committee. So Dr. Snyder Matthews, if you could stand and raise 
your right hand, I'll administer the oath.
    [Witness sworn.]
    Mr. Souder. Let the record show that the witness responded 
in the affirmative.
    I'm expecting great things here. I was talking with 
Congresswoman Katherine Harris last night at dinner, and she 
said that you're a wonderful person, worked with her in the 
State of Florida. So welcome to our hearing, and we look 
forward to your testimony.

  STATEMENT OF JANET SNYDER MATTHEWS, ASSOCIATE DIRECTOR FOR 
           CULTURAL RESOURCES, NATIONAL PARK SERVICE

    Ms. Matthews. Thank you, Mr. Chairman.
    In the interest of brevity, I will summarize the testimony 
already submitted to your subcommittee. Thank you for your kind 
comments. I'll try very hard not to disprove anything you've 
heard. And thank you, Mr. Cummings, for your comments as 
ranking member.
    My own dissertation, just completed 5 years ago, was on an 
African-American topic in southwest Florida. That grew out of 
something that I had worked on for years as a consultant. I 
know the undertone and the front tone of the things that you 
said, and appreciate your comments very much.
    I will summarize and I'll go as quickly as I can, because 
I'm already at 4 minutes and 19 seconds.
    We are about the peopling of America. The National Park 
Service, the National Register of Historic Places, National 
Landmarks--we are about peopling of America. That's what we do. 
In a nutshell, in the 1930's, the period you referred to, 
Congress authorized the Historic Sites Act, which recognized 
and underscored the importance of places significant to the 
Nation as a whole, places that were to benefit and inspire the 
Nation as a whole, places that had standing, significance to 
all Americans, coast to coast, border to border.
    In 1966, the National Historic Preservation Act, when the 
middle class came to Congress, established the National 
Register of Historic Places. The National Register of Historic 
Places, as we know it today, encompasses places of local 
significance, State significance, national significance, things 
in your backyard, things in your hometown, your grandmother's 
house if it meets the criteria. So we go from one iconographic 
level of significance to one that is all America, and 
reflective of the Congress that enacted those authorizations.
    We also do these online travel itineraries, 93 lesson plans 
that you've alluded to already. All of those things are built 
on the documentation outlined in the landmark laws and in the 
National Historic Preservation Act of 1966. It all began in 
1933 when the Parks inherited management of battlefields, and 
added that management responsibility to their mission.
    In 1935, the Historic Sites Act required a historic site 
survey, so that documentation became an important part of what 
we did to determine significance. They are thematically 
related, tied together to sites, so that they have a matching 
integrity upon which their significance can be built. The 
importance of that is that we have in each determination of 
significance something important to everybody in this room, 
including the students from Wichita, KS, who join you today in 
your committee room. We have within each one of those sometimes 
the only documented history of a place that's ever going to be 
written, because it has to meet the Federal standards for what 
documentation is.
    So each one of these programs being built over 70 years and 
40 years respectively, become a very important piece of a 
puzzle that Congress designed by virtue of how they get to be 
designated, and that is the documentation. As you said, within 
each of our areas--immigration, settlement, and migration, the 
peopling of America--we have within certain Park units so many 
sites that are specifically tied to that. But I must honestly 
say, as a historian of 30 years, whose history experience began 
with nominating a site to the National Register, that I would 
be very hard pressed to tell you that anything on the National 
Register today or any landmark today excludes the topics you 
are interested in. Whether sites are listed by that category or 
not, they represent exactly what you're after, almost each and 
every single one of them, even though we may categorize them 
for certain other purposes.
    You will be hearing from Katherine Toy. Congress directed 
the National Park Service to evaluate the feasibility and 
desirability of preserving and interpreting within the Golden 
Gate National Recreational Area, the Angel Island Immigration 
Station. On the West Coast, that is to people of Asian heritage 
what on the East Coast is represented in Ellis Island and the 
Statue of Liberty.
    Today, after 40 years, the National Register of Historic 
Places totals 77,000 listings, but those represent 1.3 million 
contributing resources, inclusive of Eatonville in Florida, 
which is the first African-American established town in the 
Nation. And places like Fort King, which is now a national 
landmark; last week the designation ceremony occurred. That was 
because it represents a coming together of the Seminole Nation, 
and includes the slaves who had gone voluntarily and 
involuntarily with the Seminole Nation, and were at war with 
the United States of America when Florida was still a 
territory.
    So we have 77,000 listings on the National Register, and 
1.3 million are contributing resources across the Nation. In 
1992, we began the travel itineraries, with the World War II 
Memorial being finalized and opening officially on Memorial 
Day. In a few days, we will have 33 travel itineraries. Those 
are on line, those are today, interactive. Established in 1993, 
the Teaching With Historic Places program is up to 113. These 
make students into historians. They are on line, and they teach 
people to map their own back yards, their own neighborhoods, 
how to get to school, what is in their own towns, how do you 
look it up, and they include hot links to the Library of 
Congress and other resources that really would not be available 
until you are an adult and qualified to research there.
    So we're talking about real places, we're talking about 70 
years worth of landmarks, 40 years with National Register of 
Historic Places. We're talking about documentation for each and 
every one of those 1.3 million resources, and 2,356 landmarks. 
We are about real places, publicly owned park units, publicly 
owned by other public bodies, privately held and individually 
held and the documentation that goes into those, and a huge 
body which could be legitimately called ``the Peopling of 
America'' in each and every instance.
    And that is the history of how we've done it. I think it 
was best said by Larry Rivers, who is the dean of the College 
of Arts and Sciences at Florida A&M University, a new member of 
our National Park System Advisory Board, that met for the first 
time since his appointment in March. He said, ``We all, 
African-Americans, Asian-Americans, Americans from every group, 
no matter what generation, need to go into these units and find 
ourselves. And if we don't go, we're not going to know. That is 
the challenge of today, and I think that's why you've convened 
this. Thank you, Mr. Chairman. I'm available to answer any 
questions that I might be able to.
    [The prepared statement of Ms. Matthews follows:]

    [GRAPHIC] [TIFF OMITTED] T6945.012
    
    [GRAPHIC] [TIFF OMITTED] T6945.013
    
    [GRAPHIC] [TIFF OMITTED] T6945.014
    
    [GRAPHIC] [TIFF OMITTED] T6945.015
    
    [GRAPHIC] [TIFF OMITTED] T6945.016
    
    [GRAPHIC] [TIFF OMITTED] T6945.017
    
    [GRAPHIC] [TIFF OMITTED] T6945.018
    
    [GRAPHIC] [TIFF OMITTED] T6945.019
    
    [GRAPHIC] [TIFF OMITTED] T6945.020
    
    Mr. Souder. Thank you. I have a number of questions I'd 
like to ask. I'm not quite sure which direction I want to go. 
Let me start with the National Historic Landmark status. Who 
initiates the process? Does it mostly come up from local 
groups? I know you have regional people who go out to check out 
proposals that are coming in, and you have a national board. 
But what's the process that says, look, here's a gap, or is it 
more a process of somebody pushing? I know for example in my 
area we had three that we raised, because we had never had a 
historic landmark in my area of the State.
    The National Park Service had sent someone in who is the 
regional person who looks at that, evaluated three. They are at 
different stages. One has been cleared. One is pending because 
the university that was contracted to study it further had a 
technical area. The third, the Richardville House, which is the 
oldest Native American home on its original site east of the 
Mississippi, had some alterations and they're trying to work 
through and take it back to its more original state.
    But those were all initiated by me, working with the local 
groups and then calling in to the National Park Service and 
asking if somebody could come here. How does, I assume that's 
not the normal process.
    Ms. Matthews. Well, it can be the normal process, and we 
would love to work with you and track those three and see 
exactly where they are. As you know, the National Historic 
Preservation Act directs each State to designate a Federal 
officer to head up the State Historic Preservation Office. I 
was the Florida State Historic Preservation Officer, and I know 
how landmarks have worked in Florida. Often it is through that 
State office, which works in conjunction with the regional 
office and the Park Service. But landmarks can be very 
individually nominated. The one I attended a designation 
ceremony for in Florida last week, Fort King, was initiated by 
the city of Ocala, and their archaeological excavations began 
in 1954.
    The U.S. Air Force Academy, which was just designated April 
1st on their 50th anniversary was undertaken by the U.S. Air 
Force Academy. Individuals such as yourself can initiate 
nominations. The National Register project I worked on 
initially, before I even had a Master's degree in history, was 
individually undertaken by me back in the days of typewriters, 
when the form I sent in weighed 3 pounds because of all the 
white-out on it.
    So it can be ny am individual. It can be by a city. It can 
be by any other unit. It can be by a private organization. With 
your Save America's Treasures grants program that you all 
support each year, and have a great interest in, it can also be 
a congressionally authorized study bill out of which national 
significance is one of the requirements. So there's hope for 
that as well.
    Mr. Souder. You described in your testimony that at one 
point, there was a, I forget the year, there was an analysis 
done by the Park Service that said, here are the key sites we 
ought to be looking at. But that isn't an ongoing review where 
you would look at it and say, I'm going to oversimplify here 
and exaggerate, but to somebody who comes from what I would 
call the Middle West or the Great Lakes States--sometimes 
Nebraska thinks of itself as the Midwest. If you go west of the 
Mississippi, wherever there were about 50 Native Americans or 
Indians, there are 2 historic sites. You go east of the 
Mississippi and there are hardly any in the system recognized.
    Now, part of that is because a lot of them were denigrated 
in their historic value. In other words, we built over them, we 
tore them down, they were destroyed. But even in this list of 
migration and settlement list that you gave, the overwhelming, 
you would guess from that migration started somewhere around 
St. Louis and then went west, and not that the majority of the 
people lived in the eastern half of the United States, and the 
majority of immigration and migration was in the eastern half 
of the United States. Does somebody look at this, even when 
congressional proposals are coming up, or looking at it and 
saying, boy, we've got some gaps here. We have a whole bunch 
out here, and you can't go 50 miles going west without running 
across a historic sites or a historic landmark. But you go east 
and they're few and far between.
    Ms. Matthews. Well, of course I will get back to you with a 
very specific answer to that very specific question and do some 
analysis of it. But of course in the eastern United States 
there is a preponderance of landmark sites and a preponderance 
of trails as well. And in my own home State of Ohio, the 
Cuyahoga Valley National Park and the Ohio and Erie National 
Heritage Corridor have a very heavy intensity of sites. 
Sometimes it's a matter of where the research has been done and 
where it hasn't.
    And if the question is, are we looking levelly at 
representation, fair representation, equal representation for 
areas, I will tell you that as Florida State Historic 
Preservation Officer, I had a call 1 day from the National 
Landmark staff in Washington saying that they had decided that 
the most likely Cuban immigration story site should be the 
Freedom Tower, the former Miami News newspaper office in Miami. 
They had actually picked that one out as the most likely one 
because it still had integrity, etc. And we started from that 
moment in-house, in-State writing that nomination, which still 
isn't finished.
    Mr. Souder. That's exactly what I was trying to get at. If 
you could give us some insight, because yesterday as we were 
working through the draft of the bill and trying to look at 
that, one of the subjects that came up was the Cuban 
immigration. Is there a site that could be identified, or is 
there any kind of planning at the national level that is 
looking at a category of Cuban-American people that is 
significant? Sometimes we say a historic site has to be more 
than 50 years old, some of the immigrant groups recently coming 
in, but if we wait 50 years, the sites are often torn down.
    In Indiana, it's been very difficult to preserve Native 
American sites. One that we were trying to develop near Peru, 
IN, which is not in my district, some landowner got, and he 
wasn't particularly positive toward historic preservation or 
Native Americans. And as we were trying to get it certified, he 
burned it down. Just burned his own property. And it was one of 
the last three major sites left in the State.
    Trying to identify in categories, for example, in 
Immigration, we had some discussion about Angel Island, and I'm 
sure we'll have some others. But clearly there are different 
types of immigration patterns, depending on the types of groups 
that came into the United States and what period they came into 
the United States. What I would be interested in is whether you 
have a process. As we look at legislation in defining that 
process, would it be helpful to have it further defined? We 
want to work with you. Otherwise, we'll either draft it and 
then ask you to comment and edit, or if you want to come to a 
proposal with us as to how to systemize this.
    One of the questions I have is, in interpreting migration 
and settlement in the sites that the Park Service units have, 
for example, the Bering Land Bridge isn't listed under that, 
which would seem like a pretty fundamental site.
    Ms. Matthews. And it is listed in some of the narrative 
text that I was reviewing this morning.
    Mr. Souder. And in fact, I have to say about Bering Land 
Strait, because I want to put this on the record. When I 
visited there, it's the only place in the United States that 
when I showed up, in fact when I called to make the 
reservation, they were so excited, because they were familiar 
with this bill and hoped that it would get more attention on 
their site, because it is arguably the first immigrationsite in 
the United States. So why wouldn't that be featured as the kind 
of preeminent immigrationsite?
    Ms. Matthews. I don't know the answer to that question. We 
can get back to you. We would welcome the opportunity to work 
with you on looking at whether there is a need for a more 
systematic process. I know how the system works in my own 
experience. And I know that it would be a welcome opportunity.
    Mr. Souder. It was a few years ago when we moved the 
Underground Railroad bill through, because we had to decide 
where were the premier sites and then where were the secondary 
sites. It is difficult because a lot of it is local. There are 
a lot of people who would have been killed or at the very least 
harassed if they had kept better records and then it's very 
hard to document. But we're not doing a systematic thing on the 
Underground Railroad.
    We had a terrible time on the Lewis and Clark Trail. We 
eventually formed a Lewis and Clark caucus here, working with 
the National Park Service. But I mean, part of it was National 
Forest, part of it was BLM, part of it was private. One little 
pet peeve that I have is when you go to a Park Service site, 
like a Gateway Arch or Fort Clatsett, it's like there is 
minimal acknowledgement that other park sites exist in the 
Lewis and Clark trail. I would expect to see, for example, when 
I came in at the front of Gateway Arch the park maps and 
brochures of every Lewis and Clark site right there in front of 
me, because that's an overview of the whole trail.
    When I go to Fort Clatsett, I've already expressed that I'm 
interested in Lewis and Clark. Why, when I walk in there, isn't 
the Park Service providing information for somebody who's 
already self-identified as somebody who is interested in Lewis 
and Clark? And that's our success story right now, is Lewis and 
Clark. Underground Railroad is moving, but what other types of 
patterns, the missions area is one. But that really doesn't 
reflect Mexican immigration in the United States. That's more 
Spanish settlement.
    What sites do we have that might reflect Mexican 
immigration? How are we going to sort that through? First off, 
many of them were here before many of us, in the southwest 
region. But then even in the new waves that have come in, what 
is the criteria? I know there's kind of a popular historical 
trend to say, everybody's exactly equal and every site's 
exactly equal. But we're in the business of having to make 
decisions.
    So how are we going to make those kinds of decisions? What 
becomes significant? Is it the integrity of the site? Is it the 
lack of other sites similar in that category, and what kind of 
weight should there be? Is it the historic nature of that site, 
so it may not be the ideal site for the Cubans, because it 
doesn't have its structural integrity? But it may be the place 
where most of them landed and the building has been taken down, 
so the ground itself is what's important. And how do we weigh 
that? I think the way we weigh it right now, quite frankly, 
with some exceptions, it sounds like the Park Service is doing 
it based on who politically thinks of a bill and gets it put in 
an appropriations bill. Seems to be part of the way we're doing 
it right now.
    Ms. Matthews. That's one way. And certainly the way you 
would see from your perspective. There is also a tremendous 
grass roots opportunity and a growing one for individual 
nominations to come from local governments and individuals. 
That's the effort I've seen on the ground, and I've seen that 
make a huge difference, not just in what you describe in the 
interpretation.
    By the way, we have a very nice travel itinerary on the 
Lewis and Clark trail. And that probably should have been on an 
interactive device when you walked through the door, where you 
punched it and saw the little canoes going up the rivers and 
the portaging.
    Mr. Souder. It should have been there before there is an 
anniversary?
    Ms. Matthews. Yes, for you to punch the button. We would 
love to work with you on exactly what you are describing. There 
is a grass roots element. There is a State element. There are 
local government elements. There is the element you see in 
congressional authorizations for studies.
    Mr. Souder. We usually are reacting to the grass roots 
elements, so it's not like we go around thinking of the things. 
A grass roots group will come in to us. But that means it's 
often determined by political power, not by the merits.
    Ms. Matthews. Well, I can tell you in my own experience, I 
began my career in history by doing an independent National 
Register nomination and found out how difficult it was to do, 
and finally turned that enthusiasm into a Master's degree.
    Mr. Souder. Mr. Cummings.
    Mr. Cummings. First of all, thank you for being here. You 
said you did a dissertation, is that what you mentioned when 
you were talking earlier?
    Ms. Matthews. Yes, sir.
    Mr. Cummings. What was it on?
    Ms. Matthews. It was on--I actually can't repeat the title, 
it was so complicated. But roughly, in a nutshell, it was----
    Mr. Cummings. This was for a Ph.D?
    Ms. Matthews. Yes, sir.
    Mr. Cummings. OK.
    Ms. Matthews. I could write it, but I can't give you the 
title, but it's something like this. It was on the African-
American experience in southwest Florida from 1841 and the 
Seminole conflict, through 1927 when Dunbar High School was 
established as the only African-American high school between 
Tampa and Miami. It was established after a horrific lynching 
of two young men who were Williams Academy students. I had been 
hired to do historical consulting on restoration of Williams 
Academy. And in the course of that, I was invited to interview 
gentlemen who had been first and second graders during this 
school experience.
    So my dissertation covered the Seminole conflict, the Civil 
War when two units of the U.S. Colored Infantry were stationed 
at Fort Myers. And the evolution of the establishment of the 
first school there in the 1880's by a homesteading freed slave 
who in the course of proving up his homestead papers indicated 
that he'd been freed on an inland farm, a cattle farm by the 
U.S. Colored Infantry unit stationed at Fort Myers, on to the 
establishment of his community, which is today called Dunbar, 
and named for the school established in 1927.
    Mr. Cummings. So your job is what? What are your 
responsibilities?
    Ms. Matthews. I'm the associate director for cultural 
resources. So that covers history, archaeology, all the 
programs that we touched on here today.
    Mr. Cummings. Were you involved in this, the one in Topeka?
    Ms. Matthews. No, sir, our travel is severely restricted. I 
certainly wish I had been standing there beside you. I felt 
like I was. I listened to it all on NPR and C-SPAN.
    Mr. Cummings. Let me ask you this. One of the things with 
regard to African-American history is the migration from the 
South. I assume you keep up with things that you all do in your 
area. I mean, I take it that's your job.
    Ms. Matthews. Yes.
    Mr. Cummings. Do we have a lot on that? Because that's 
very, very significant, as I'm sure you well know.
    Ms. Matthews. I was thinking about that as we prepared for 
what you might want to cover here this morning and this 
afternoon. There has been a lot written. And I will get to you 
some reference works, if you want, on the migration out of the 
South to the industrial cities of the North and to the 
relatively more inviting opportunities that were available. And 
now the reverse is happening, as people like Tuskegee Airmen 
settle in Sarasota, FL, and retired school teachers from 
Detroit come back to their roots, back to the South which is 
now a more welcoming place than it was when they left.
    That migration within the United States is a very important 
part of what I think should be incorporated into your context 
here.
    Mr. Cummings. Do we have a lot on that, the migration?
    Ms. Matthews. There has been a lot written about it.
    Mr. Cummings. But I mean with regard to, and I don't even 
know what the, it's just like you have an exhibit there in 
Topeka. Are there things that people can actually go to? Let me 
say where I'm going. A few years back, there was an exhibit at 
the Smithsonian, and I also want to know how you all work with 
the Smithsonian, by the way. Just make a footnote of that. And 
it was one of the most moving exhibits I've ever seen. It was 
called From Field to Factory.
    Basically what it was, they had all kinds of, they would 
have like books from these landowners in the South where they 
could literally show how, I mean, these were actual books that 
where the sharecroppers were paid, they told them how much 
cotton they had picked or whatever. You could literally see, 
these were actual, unaltered, how these people were being 
cheated. And they'd work all day, pick all this cotton, and 
there was a manipulation of the figures, like two sets of 
books.
    And I'll never forget, I said to my father, who was a 
former sharecropper from Manning, SC, to see this exhibit, and 
it was a wonderful exhibit. It had stuff about churches and it 
had some old beat-up cars people used to get from the South to 
the North. And he cried, because his whole life had been 
changed when he moved from the South to the North, from making 
15 cents a day to making $1 an hour.
    I just was wondering how, are there things like, I don't 
know what it would be, but are there exhibits or places that 
people can go if they wanted to see stuff like that.
    Ms. Matthews. May I get back to you on that?
    Mr. Cummings. Yes, please do. Is that considered part of 
``Peopling,'' by the way? This whole thing, ``Peopling?''
    Ms. Matthews. Absolutely. It's huge. And today, in historic 
sites everywhere, there's an interest in going back and 
looking. Because at plantation houses, at one time the only 
thing of interest was the people who lived in the plantation 
house. We've now spent many, many, many years of study just on 
how slaves lived, and how you interpret the slave experience, 
the life, the culture, the hard work, the pay.
    A lot of those records are available through the census. 
Prior to 1865 there were two separate census records, as you 
know. Those have a wealth of information. In my own experience 
with school records, the original school records for Lee County 
exist. And the records for the State of Florida exist side by 
side, which show how much was spent on a book for colored 
children, there's an asterisk after that word, and how much was 
spent on White children. That record is permanent.
    And it's just like that exhibit. You read those and it 
brings tears, whether you experienced it or you didn't. It just 
couldn't be more graphic.
    Mr. Cummings. Let me just ask you this finally. I think, I 
clearly understand, and you are saying things right now that is 
a reminder of why diversity is so important. Because I would 
think that, I want people, want to make sure people in your 
organization who care enough to appreciate that all people need 
to know the history, good, bad and ugly, of all people who make 
up this country. How do you guarantee, how do you try to make, 
what efforts do you put forth to make sure that happens?
    Ms. Matthews. Well, I can tell you from my own experience, 
I came to the Park Service January 5th, raised my right hand, 
and that was the last time I had done that lately until today. 
And in my own experience, to know is to care. And that's 
research. And I have worked very hard and the Park Service has 
worked very hard to have diverse representation. The National 
Park System Advisory Board, a new member, Dr. Rivers, who wrote 
Slavery in Florida, just published 3 years ago.
    We have worked very hard to have representation and to 
incorporate it into every landmark study. I chaired the 
Landmarks Committee as a member of the National Park System 
Advisory Board appointed in 2002. And for every landmark 
nomination that came through there, we saw to it that diversity 
was represented in the documentation before it went out of that 
committee. Because it is so important. If it isn't there in 
those little documentary histories, it isn't going to be 
interpreted. And if it is there, it will be there. And that's a 
very big thing.
    Mr. Cummings. This is the last question I have. I had a 
conversation with Congressman Jim Clyburn at lunch today. And 
he was telling me how in South Carolina, as a matter of fact, 
he represents the same area where my foreparents were slaves. 
And he was saying that an elderly White gentleman who 
apparently was an editor of a newspaper or worked for a 
newspaper down there in Clarendon County was at a dinner with 
regard to Topeka, KS, the it Brown v. Board. And he was just 
talking about how the paper intentionally did not record things 
that were happening with African-Americans, I mean good stuff.
    And the sad part about it is that, Jim was saying, and Jim 
is a historian, and when he goes back trying to find history, 
it's not there. Unless an African-American paper wrote it, it's 
not there. It's like it never happened. So one of the things 
that people, that a lot of us do here in the Congress, African-
Americans, we try to make sure that every chance we get, if 
there is something we want to make sure goes down in history, 
we'll talk about it. Because we want to make sure that 300, 400 
years from now, if there are some folks that want to know about 
their history, they'll be able to read something that says, 
this happened back in 2003 or what have you.
    The reason why I say all this, Mr. Chairman, and to you, 
our witness, I just want to reiterate how important it is. I 
want my daughter, every document that has my name in it, I make 
sure I save. Do you know why? Because I don't have that. I 
don't have information about my great-grandfather. Zero. I 
don't know what they did. I know they were slaves, but that's 
about all I know.
    I think it's important that young people, that people have 
an idea of where they came from, be it good, bad or ugly. So I 
just want to point that out, because I think it's so very, very 
important.
    Ms. Matthews. It's very important, and it should be noted 
that those school mates of theirs' murders, ceremonial murders 
were never recorded in any newspaper. They were dismissed by 
the coroner's jury, the authorities. When I worked on my 
dissertation, and learned that the NAACP had been founded, one 
of their specific goals was to record lynchings in the South. 
And when Theodore White started all that, and they started 
because he had blonde hair and blue eyes, and he could go get 
eyewitness testimony.
    When I discovered those Fort Myers lynchings and others in 
Florida, simultaneous in the 1920's were recorded in newspapers 
and collected in the NAACP clippings files. They are there. And 
I was thrilled and they were thrilled. I will tell you that in 
a lot of slave records, there are very, very good records. 
Judge Manson, the Assistant Secretary for Fish and Wildlife and 
Parks, has started doing his own research and family history. 
And he's amazed at what he's finding.
    Mr. Cummings. Thank you very much.
    Mr. Souder. One of the main things that I'm interested in 
focusing on, and I've gone on the National Parks Web site, I 
got appointed to the Resources Committee because of my 
interested in history and have accumulated this. I'm bound and 
determined to make sure a few things happen before I leave 
Congress. One is that there is some order to this process. 
Because first off, most of the Members, at least in the 
majority side, are from the west. It results in a discontinuity 
of things coming to the House floor geographically. I want to 
know that there is some kind of order. If you take this, OK, 
where are our parks, which would be the premier institutions, 
then where are national historic sites, which would be smaller 
than a park but similar to a park? Where are these recreational 
areas, seashores, all that kind of stuff.
    But then if you would go down to heritage areas, which 
would be somewhere underneath parks and sites to heritage 
areas, then you have landmarks, then you have National 
Register. And you can get books on these different things. If 
you look at the National Landmarks book, it is incredibly 
uneven in its distribution. Hence my question of how does it 
get in there.
    For example, 75 percent of the people in Indiana are north 
of 40, but most of the historic landmarks are south. That's 
just in my home State. But in looking at the book, I can tell 
there's a great unevenness in State after State. And there's 
almost a randomness to the significance of the sites. I'm not 
saying the most significant sites aren't in there, I'm just 
saying there's a randomness beyond that.
    And I'm wondering how you do that. Clearly we have a 
shortage of African-American sites. And there still may be. For 
example, I don't know whether you'd look at Chicago or Detroit 
or Philadelphia or pick a city and say, OK, where can we do 
this, the big times of southern migration and tell that story. 
At the same time, there is proportionally nothing on Swedish 
and Norwegian migration, or minimal, other than sites. 
Certainly not a landmark, probably not anything at a park, or 
maybe a site inside these new recreation areas that are more 
common and where you have multiple historic sites.
    The German heritage of the United States, where you have 50 
million people without their story being accessed at all. Some 
States sites in Pennsylvania, and we'll follow that up in the 
second panel.
    But what kind of systematic evaluation that says, look, are 
there holes here? What do we need to do and look at from a 
national perspective and what's a fair way to do this? And then 
what issues inside this for immigration, migration and 
settlement differently and try to get some order to that? I 
believe the Park Service has been doing this. Like you say, 
it's a major part of what the Park Service does. You have many 
of these sites inside. And of your list on migration 
settlement, I've been to half of those, and there are a lot of 
pretty obscure sites on there.
    So it's not as though I haven't been looking at these and 
don't understand some of the length. I can tell you for 
example, I think it's really nice that the Klondike Gold Rush 
National Historic Park in Seattle is finally starting to try to 
figure out how to work with the one in Skagway. It would have 
been nice to do that a little while ago, since we have two 
national park sites along the same stream that have only been 
marginally integrated.
    So that's kind of what is behind this, and I look forward 
to working with you on it and look forward to having somebody 
who actually has worked in the field with this type of thing.
    Ms. Matthews. Thank you very much. I would really look 
forward and welcome working with you all on this.
    Mr. Cummings. Just one other, two other questions real 
quick. When we talk about migration and immigration, would 
slaves be a part of that, people coming here as slaves?
    Ms. Matthews. There's involuntary immigration and there's 
voluntary immigration. The Trail of Tears and the importation 
of slaves are definitely involuntary.
    Mr. Cummings. So it is a part of this whole thing?
    Ms. Matthews. It is a part of this whole thing, and it's a 
very big part, and it's a growing part. As we evolve as a 
Nation, with a conscience and a forward look, we know we have 
to look back, exactly as you said, at the good, the bad and the 
ugly. That's how we understand who we are and don't make the 
same mistakes again.
    Mr. Cummings. Just one more. What about the Native 
Americans and all they went through and all they lost?
    Ms. Matthews. That's a very important part of what we do, 
and it's a very important part of the law. One of the major 
projects we're working on right now is the Native American 
Graves Protection and Repatriation Act, passed by Congress in 
1990, and implementation of that, dealing with the Native 
American representatives directly.
    Mr. Cummings. Thank you. Thank you, Mr. Chairman.
    Mr. Souder. The specifics in the peopling bill, you would 
separate, some of these things might have multiple functions. 
But you certainly would have an immigration, involuntary and 
voluntary and West Indian as opposed to maybe African. You 
would have a number of things. But not everything Native 
American would necessarily fall into the category of peopling, 
and not everything under the African-American struggle toward 
freedom would fall under peopling. There would be different 
functions inside the Park Service that might address the battle 
for liberty, the battle for jobs and different categories.
    Partly what happens is when sites, in my opinion, aren't 
focused to define an experience in some region and try to do 
100 things at the site. You don't get anything out of the site 
when it isn't focused. You get so much of a random type thing 
and so many different thoughts in your head, you don't walk out 
with a clear theme. And that's part of trying to tell different 
stories in different places rather than to some degree what is 
happening in the Lewis and Clark Trail. Every site told, 90 
percent of the thing was on the whole story, and then 10 
percent of the uniqueness.
    You should be able to get kind of an overview, and then 
when you go to the individual sites, get the uniqueness of that 
site, but have a place where you can go for the story. 
Immigration would do that. You might have how you first come 
in, then the first move farther west and south, then the big 
migration pattern up to Chicago or to Detroit, when the auto 
era started. Then following through with others. There are 
primary and secondary sites.
    And when we're not willing to make those tough cuts, it 
makes it very difficult to absorb the story, because you're 
just getting feelings rather than really a layout. That's what 
we're trying to do with the bill. And the Park Service will 
have other elements, too, in the Native American story, which 
will be battles and abuse and all sorts of other things to it.
    Do we have a vote right now? Thank you very much for your 
testimony, and we look forward to following up.
    Ms. Matthews. Thank you, Mr. Chairman, thank you, Mr. 
Cummings.
    Mr. Cummings. Thank you very much.
    Mr. Souder. If the second panel will come forward, before I 
swear you in, I'm going to find out whether we've got some 
votes.
    Why don't we go ahead and introduce the second panel, 
because Congresswoman Woolsey is here to introduce Ms. Toy. 
There are going to be five votes. Congresswoman Woolsey, do you 
want to do that from there, or do you want to come up here and 
introduce her? What would you like to do?
    OK, let me swear in the witnesses first. And if you'll each 
stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each has responded in 
the affirmative.
    I now yield to our distinguished colleague from the San 
Francisco area, who has long been an advocate of the Angel 
Island area to introduce our panelists and describe a little 
bit the background of that.
    Ms. Woolsey. Thank you, Mr. Chairman. And thank you, Mr. 
Cummings. It's nice to see Eleanor Holmes Norton here today.
    I'm very thankful that you allowed me to come here today to 
introduce Katherine Toy. Katherine is the executive director of 
the Angel Island Immigration Station Foundation. She and I have 
been working together for the past 2 years in an effort to 
preserve the historic Angel Island Immigration Station, which 
is located on Angel Island in my district, the Sixth 
Congressional District which starts halfway across the Golden 
Gate Bridge, going north from San Francisco.
    As Katherine will share with you today, this site has 
important historical significance to the thousands of 
immigrants, primarily Chinese, who entered the United States on 
the west coast at Angel Island. I have been to this site and 
I've seen first-hand the telling poetry carved in the walls 
depicting the sadness, and yes, the hope of the people held 
there. In addition, I have observed the desperate physical 
condition of the site, and I've seen the importance of 
providing additional funding to preserve this American 
treasure.
    Katherine Toy has worked tirelessly with my office to find 
additional sources of funding to preserve and restore the Angel 
Island Immigration Station, which is currently used as a 
teaching tool for students and a museum for visitors. The bad 
news is that the current estimate to preserve this site comes 
in at $30 million. But the good news is that $16 million has 
already been raised, through grants, State funding and private 
donations. So we only need $15 million in order to save this 
historic site.
    That's why today I brought the Angel Island Immigration 
Station Reservation and Preservation Act with 21 original co-
sponsors. This legislation becomes necessary because the 
Immigration Station is located in a California State park. 
Therefore, it's ineligible to receive Federal dollars beyond 
the Federal grants already tapped, unless we help. My bill 
would allow the Angel Island Immigration Station to retain its 
status as a State-owned facility, but make a special exception 
for the preservation project to receive the Federal dollars 
needed to preserve the site.
    I hope all the Members here today will consider supporting 
this effort in your upcoming bill, Mr. Chairman. It sounds like 
a great bill.
    Thank you again for letting me speak. I'm proud to have a 
constituent and a dedicated person like Katherine Toy working 
absolutely passionately and effectively to help others 
understand the story of the Angel Island Immigration Station. 
And again, thank you for letting me come.
    Mr. Souder. Thank you very much.
    We're going to take a recess, so we can go do the votes, 
then we'll come back for your formal testimony. That will 
enable the questions to come at the same time as the testimony.
    Thank you very much, Congresswoman Woolsey. The 
subcommittee stands in recess.
    [Recess.]
    Mr. Souder. The subcommittee is reconvened. Thank you all 
for your patience. We'll take your statements, and we won't 
really turn the clock on, because it will be pretty informal at 
this point. But we want to make sure that the statements each 
get into the record. Your full statement will be in the record, 
anything you want to add, and then we'll ask some questions. 
We'll start with Ms. Katherine Toy, executive director of the 
Angel Island Immigration Station Foundation in San Francisco, 
CA.

 STATEMENTS OF KATHERINE TOY, EXECUTIVE DIRECTOR, ANGEL ISLAND 
 IMMIGRATION STATION FOUNDATION; ELLEN VON KARAJAN, EXECUTIVE 
DIRECTOR, THE SOCIETY FOR THE PRESERVATION OF FEDERAL HILL AND 
FELL'S POINT, BOARD MEMBER, BALTIMORE IMMIGRATION PROJECT; AND 
KATHRYN E. WILSON, DIRECTOR, EDUCATION AND INTERPRETATION, THE 
               HISTORICAL SOCIETY OF PENNSYLVANIA

    Ms. Toy. Thank you, Chairman Souder, for this opportunity 
to speak before this committee today on the peopling of 
America. I'm Katherine Toy, executive director of the Angel 
Island Immigration Station Foundation, the non-profit partner 
of California State Parks and the National Park Service in the 
work to preserve the historic U.S. Immigration Station in San 
Francisco Bay.
    Our Nation offers a history of great diversity, one that 
matches the wealth and experiences of our rich heritage. So 
many of these stories, however, have gone untold. Angel Island 
Immigration Station is one example of such a hidden history now 
coming to light and enriching our understanding of our Nation 
in historic and contemporary times. Most Americans know the 
story of Ellis Island, which processed immigrants crossing the 
Atlantic. But the story of its west coast counterpart, Angel 
Island, is little known.
    Located in the middle of San Francisco Bay, Angel Island 
Immigration Station was routinely the first stop for many 
immigrants crossing the Pacific Ocean. Between 1910 and 1940, 
hundreds and thousands of immigrants from around the world came 
through the station. Angel Island's greatest significance, 
however, is tied to the story of approximately 175,000 Chinese 
immigrants whose experience was shaped by the Chinese Exclusion 
Act, the only legislation ever to ban a specific ethnic group 
from entry into the United States.
    Whereas many immigrants passed through Angel Island in a 
number of days, the average detention time for a Chinese 
immigrant was 2 to 3 weeks, and often several months. A few 
were forced to remain on the island for nearly 2 years. As a 
point of comparison, most immigrants passed through Ellis 
Island within a day.
    In 1882, Congress passed the first Chinese Exclusion Act, 
prohibiting Chinese laborers from immigrating and denying 
citizenship to foreign-born Chinese. Other exclusionary laws 
followed that profoundly affected all Asian immigration until 
the repeal of the Chinese Exclusion Act in 1943.
    But exclusion did not stop Chinese and other Asians from 
coming to America. Feeling the laws were unfair, they came as 
paper sons, falsely claiming to be related to a legal resident 
or another family legally entering the country. But the burden 
of proof fell squarely on the shoulders of every Chinese 
immigrant brought to Angel Island Immigration Station. New 
arrivals to the Immigration Station underwent a medical 
examination. Unfamiliar with the language, customs and western 
medical procedures, the examination was often characterized by 
newcomers as humiliating and barbaric.
    After the physical examinations, the entry hearing was the 
most critical hurdle. Hearings often lasted 2 to 3 days, with 
inspectors interrogating applicants about the smallest details 
of their houses, village or family. A family member of the 
applicant was also interrogated to confirm the applicant's 
answers. Passing the interrogation was no simple task. Failure 
could mean deportation. The last resort was an appeal to a 
higher court and an indefinite stay on Angel Island while 
awaiting a decision.
    Inspectors presiding over each case had wide discretionary 
power in determining the fate of each applicants. Questions 
typically asked included, what is your living room floor made 
of, where has the rice been kept, where is your village temple, 
what direction does your home in China face, how many windows 
does your house in China have. For Chinese immigrants detained 
on Angel Island, weeks easily passed into months, anxiety, 
depression and fear were expressed through poetry written and 
carved into the barrack walls. Today, more than 100 of these 
poems are still visible at Angel Island Immigration Station, 
capturing the voices of immigrants in time and place and 
serving as a physical and emotional testament that resonates 
with all Americans who share a history of immigration.
    Angel Island Immigration Station closed in 1940 after a 
fire destroyed the administration building. The Immigration 
Stationsite and buildings were transferred back to the U.S. 
Army, which quickly adapted the site to temporarily detain 
prisoners of war and to house enlisted soldiers. When the Army 
vacated Angel Island, the structures fell into disrepair. 
Today, Angel Island Immigration Station is a part of Angel 
Island State Park and operated by the California State Park 
system. Limited restoration efforts by community members in the 
early 1980's allowed the first floor of the detention barracks 
to open to the public for the first time, and some of the 
poetry to be viewed.
    The site is a popular destination for school field trips, 
with more than 30,000 students and their teachers visiting the 
site each year. It has been nearly 50 years since the last 
active use of Angel Island Immigration Station. The buildings 
and the treasured poems have been battered by time and 
elements. Over the past two decades, the Angel Island 
Immigration Station Foundation has tirelessly advocated for the 
preservation of the poetry and remaining structures on the 
former detentionsite.
    The Immigration Station is now a national historic 
landmark. It took our group almost 20 years of community-based 
advocacy to win that designation. In 1999, the site was named 
as one of America's 11 most endangered historic places by the 
National Trust for Historic Preservation. We are also a member 
of the International Coalition of Historic Site Museums of 
Conscience.
    Over the past few years, our organization and preservation 
partners, California State Parks and the National Park Service, 
have conducted approximately $500,000 worth of historic 
preservation studies with funds raised from private, State and 
Federal sources. A master plan for the site has now been 
completed, calling for five phases of restoration at the 
historic Immigration Station. Phase one is funded by $15 
million in bond funds approved by California voters in 2000 and 
a $500,000 Save America's Treasures grant from the National 
Park Service, Department of the Interior. The entire project, 
however, is expected to cost far above $30 million.
    While owned and operated by the State of California today, 
Angel Island represents a national history of importance to all 
Americans. In fact, while the Immigration Station and the 
precious poems carved on the walls serve as a physical 
touchstone to history, the story of these immigrants is 
chronicled in the National Archives and Records Administration. 
Future phases of the Immigration Station project call for 
restoration of the station hospital as an educational and 
family history and genealogy center, providing visitors with 
digital access to NARA and other immigration records.
    The enduring value of Angel Island Immigration Station lies 
in the lessons of its past and what it can teach us about our 
present and our future. Immigration is a national story and one 
that gets to the heart of the very question of America's 
identity: who is an American, who is included and who is 
excluded, and how has that definition changed over time. Angel 
Island and Ellis Island serve as bookends to the national story 
of immigration, not only in geography, but also in meaning and 
experience. While Angel Island represents a difficult chapter 
in our national history, it is ultimately a story of triumph 
and of perseverance of immigrants to endure and establish new 
lives in this country. It's important to tell these stories to 
validate the experience of these people as a legitimate part, 
not of only Asian-American history, but of American history, 
because the stories that we don't tell say just as much about 
us and our culture and our values as the stories we do tell.
    The restoration of Angel Island Immigration Station is a 
prime example of how everyday Americans can work together with 
private, State and Federal partners to preserve a chapter of 
our national story. Congress can aid this work by supporting 
bills such as the Angel Island Restoration and Preservation 
Act, introduced this week by Congresswoman Lynn Woolsey, which 
will help direct Federal dollars to the preservation of this 
important historical site.
    I applaud the members of this subcommittee for your efforts 
to understand the needs of preserving the history of the 
peopling of America. I urge you and your fellow Members of 
Congress to work to preserve sites like Angel Island 
Immigration Station. In doing so, generations to come can 
appreciate these sites, which are symbols of the perseverance 
of the immigrant spirit and the diversity of this great Nation. 
Thank you.
    [The prepared statement of Ms. Toy follows:]

    [GRAPHIC] [TIFF OMITTED] T6945.021
    
    [GRAPHIC] [TIFF OMITTED] T6945.022
    
    [GRAPHIC] [TIFF OMITTED] T6945.023
    
    [GRAPHIC] [TIFF OMITTED] T6945.024
    
    [GRAPHIC] [TIFF OMITTED] T6945.025
    
    [GRAPHIC] [TIFF OMITTED] T6945.026
    
    [GRAPHIC] [TIFF OMITTED] T6945.027
    
    [GRAPHIC] [TIFF OMITTED] T6945.028
    
    [GRAPHIC] [TIFF OMITTED] T6945.029
    
    [GRAPHIC] [TIFF OMITTED] T6945.030
    
    [GRAPHIC] [TIFF OMITTED] T6945.031
    
    [GRAPHIC] [TIFF OMITTED] T6945.032
    
    [GRAPHIC] [TIFF OMITTED] T6945.033
    
    [GRAPHIC] [TIFF OMITTED] T6945.034
    
    [GRAPHIC] [TIFF OMITTED] T6945.035
    
    Mr. Souder. Thank you, Ms. Toy.
    Ms. Karajan.
    Ms. Von Karajan. Thank you for allowing me to speak to you 
this afternoon. I also want to thank you sincerely, as a person 
who is out there every day trying to deal with these issues of 
interpretation, for your very sincere and thorough interest in 
this topic. It's a topic very dear to my heart.
    Sadly, just 2 days ago, the Preservation Society was forced 
to appear before a Baltimore City Circuit Court judge to secure 
a temporary restraining order to halt the demolition of a 
series of buildings very important to Baltimore's immigration 
history. This is the family home and creamery or dairy of 
Julius Wills, a German immigrant and dairyman. These buildings 
were structurally sound, they were built in 1927.
    But they were idiosyncratic. Even though they were located 
in a National Register historic district, and even though they 
were theoretically protected by an urban renewal plan, because 
they didn't fit the mold of what city officials thought of as 
historic, and they didn't belong to an important man, only a 
working man, the city issued a demolition permit. These 
properties will come down and be replaced with a group of five 
new townhouses as part of the gentrification that's going on 
right now in Fell's Point.
    Actually, we were able to get the demolition restraining 
order because the city felt that these buildings were so 
unimportant that they didn't even bother to follow their own 
internal procedures before they issued the demolition permit. 
So it was on a point of law. It's also only the second time in 
the more than 35 year history of the Preservation Society that 
we've ever prevailed against a demolition action that was 
brought by someone who wanted such a permit.
    But that's what Fell's Point is and that is what is 
historically important about it. It is a maritime working man's 
community, and it is and has always been an immigrant 
community. Why the properties there are important is 
summarized, and I'm not going to read the whole thing in the 
interest of time. But in a letter that is written by a man, Ron 
Zimmerman, who for the last 10 years has been trying to create 
this Baltimore immigration project to tell the story of 
Baltimore's immigration, migration and settlement, Ron is a 
person who will tell you he doesn't have a high school 
education. He began his career digging ditches. He's been a 
Locust Point resident his entire life. And when he went to 
Ellis Island and saw what happened there, he knew that his 
family had come in here in Baltimore at Locust Point, and he 
said, well, we have our own story here in Baltimore, why 
doesn't anybody tell it?
    And he's been working for 10 years trying to get the story 
told, but I want to read this one section in the letter where 
he says, for the last 10 years, I have been working on a 
program to honor and record the story of Baltimore's immigrant 
founding families before what these people did to get us 
started in America gets lost in time and space forever.
    He talks about Mr. Julius Wills and says, ``He was 
ordinary, but what this man did, what this immigrant did was to 
bring sweet, nourishing milk and even ice cream to a part of 
the city that was poor and stinking and overcrowded and lacking 
in any kind of clean fun beyond our imagination. The city 
didn't even get around to putting public water or public 
sanitation in Fell's Point until the 1930's. So you can 
imagine, it was pretty bad. Not to mention most of the liquid 
that flowed in Fell's Point, prohibition or not, was not milk. 
It was still a sailor's town, filled with flophouses and 
barrooms, and its housing stock was so degraded that it became 
the natural place for the worst-off of the newly arrived 
immigrant families to settle.''
    I want to flip forward to another line, where he said, 
``Fell's Point people changed the world and changed the course 
of history, some with daring-do and audacity, like the 
privateers in the War of 1812 and some in ways that were plain 
and basic, like Mr. Wills, with milk and ice cream. Please help 
me honor the memory of both by working with us to find ways to 
develop those buildings without bulldozing them.''
    I want to jump forward now to say that, although Baltimore 
was a major port, certainly a major port of entry for a great 
many people, we don't have so much as a single historic marker 
anywhere to commemorate this. Fell's Point was the early port 
of entry during the age of sail. Later on, during the age of 
steam, Locust Point became the major point and also Canton. But 
believe it or not, we don't have a single historic marker there 
to commemorate. Now, our buildings are gone. Immigration was a 
private enterprise in Baltimore, it was really a business 
venture between the shipping lines and the railroads. It really 
preceded the days of a lot of Federal Government intervention. 
The immigration depots themselves were wooden, they were 
destroyed in fires. You can just see the ends of sort of the 
ruins, the tiny little footings that are left from the piers. 
That's about all that's left.
    But it is equally difficult for those of us who are 
interested in the topic is that when we actually began to 
involve some historians, almost nothing is written about 
immigration in our State. There's a single chapter length 
article by a local historian, Dr. Dean Esslinger, in a book 
called Forgotten Doors: The Other Ports of Entry to the United 
States. And as we talk to people, what we find is, hard to 
believe, but many people don't even recognize, I mean, Ellis 
Island has done such a magnificent job of telling its story 
that people do not realize that there were other major ports of 
entry and other immigration depots throughout the country and 
on the east coast.
    We are just about to celebrate the 300th anniversary of the 
Port of Baltimore, so we've really found a tremendous amount of 
enthusiasm on the part of historians, ethnic aid organizations, 
all sorts of people to bring their energies together to really 
begin to tell the story of what happened here. So the Baltimore 
Immigration Project really is a partnership of all of these 
groups. We don't have a single staff person at this point in 
time. We have been applying for grants, I've listed on the 
final sheet the academic and archival institutions we have been 
able to recruit to assist us, all on a voluntary basis. 
Community organizations and ethnic aid organizations and in the 
public sector, places like the Maryland Heritage Area 
Authority, certainly the Chesapeake Bay Gateway, private 
foundations and corporate foundations.
    But what we want to do in Baltimore, we've set out to do in 
two phases since we realized this was going to take some time, 
since we're starting from in essence nowhere, we want to create 
an online genealogical data base to make it easier for people 
to trace their roots here. Because right now, you go to the 
city archives or you can come to the Library of Congress or you 
can go to the Maryland Historical Society and find the shipping 
manifests.
    But these organizations are not particularly accessible. 
The Maryland Historical Society is an archival institution, so 
you have to wear gloves to work with their materials. You need 
to make appointments. We want to make this as easy as possible 
for people to be able to find out who their people were, where 
they came in, what vessel they came in on. Since we know that 
we'll never be able, that our structures are gone, our actual 
immigration depots are gone, we have a magnificent digital 
imaging center at the University of Maryland, we want to 
digitally recreate, and there are some amazing technologies 
that are relatively inexpensive, so that people can actually 
see what it would have been like, we know what it would have 
been like from historical records, from architectural data and 
from photographs.
    The other big thing that we want to do and that we're 
hoping to accomplish through our National Endowment for the 
Humanities ``We the People'' grant, if it's funded, we want to 
stimulate interest in the scholarly community and bring to bear 
the talent of some of these people and take a look at this and 
create actually an intranet, a sort of history intranet where 
these historians can share information and their discoveries 
and the images that they find with each other.
    We want to develop an orientation film and an interactive 
multimedia Web site because Baltimore remains a community of 
neighborhoods, we want to be able to enable people to come to 
one place and go out to other places, so that if they are 
interested in the African-American experience, if they are 
interested in the German experience, they can come to a place 
and then we can send them out to other places, so that they can 
see the progression of settlement in Baltimore.
    We have already created the self-guided walking tour, 
enlisting the help of some scholars. We want to identify and 
document key historic sites, because we simply have not, as I 
said, we don't have a single marker that tells what our 
important places are. And there's all of this history that's 
just buried for want of someone to actually tell the story of 
it. And of course, we want to work with others to publicize 
this program as widely as possible, locally, nationally and 
internationally.
    So in closing, I really want to thank you for convening a 
hearing on the topic of historic preservation of the peopling 
of America, and for inviting our testimony today. We have great 
plans at the Baltimore Immigration Project for programs, for 
family reunions, for family genealogical research. But these 
plans depend on having important historic immigration and 
settlement properties intact, and that's where the Preservation 
Society comes in, and today's hearing. It also depends on 
getting the research on the documentation done.
    I think that as I say in closing, we owe this much to our 
fathers and our mothers and our grandmothers and grandfathers, 
and to our children and grandchildren and their children. Thank 
you very much.
    [The prepared statement of Ms. Von Karajan follows:]

    [GRAPHIC] [TIFF OMITTED] T6945.036
    
    [GRAPHIC] [TIFF OMITTED] T6945.037
    
    [GRAPHIC] [TIFF OMITTED] T6945.038
    
    [GRAPHIC] [TIFF OMITTED] T6945.039
    
    [GRAPHIC] [TIFF OMITTED] T6945.040
    
    [GRAPHIC] [TIFF OMITTED] T6945.041
    
    [GRAPHIC] [TIFF OMITTED] T6945.042
    
    [GRAPHIC] [TIFF OMITTED] T6945.043
    
    [GRAPHIC] [TIFF OMITTED] T6945.044
    
    [GRAPHIC] [TIFF OMITTED] T6945.045
    
    [GRAPHIC] [TIFF OMITTED] T6945.046
    
    Mr. Souder. Thank you very much.
    Dr. Wilson.
    Ms. Wilson. Mr. Chairman, I want to thank you for the 
invitation to address the subcommittee today on the subject of 
the historic preservation of America's immigrant heritage. It's 
my pleasure to tell you just a little bit about what we're 
doing in Philadelphia and some of the challenges of that work 
and of preserving immigration history generally.
    Just a kind of mini-crash course on Philadelphia history, 
it is a kind of microcosm of American diversity, three 
centuries of immigration encompassed in the story of one 
region. From the beginning of William Penn's holy experiment to 
the present, we've seen a large number and a great diversity of 
settlement to the area. William Penn encouraged immigration 
from all over Europe and especially with regard to German 
immigration in the 18th century, the first German settlement in 
America is located in northwest Philadelphia.
    Throughout the 19th century, Philadelphia remained an 
economic center and an immigrant destination, although the port 
was maybe third or fourth, depending on what period you're 
looking at, compared to places like New York. A lot of 
immigrants who came through Ellis Island actually eventually 
settled in Philadelphia and in Pennsylvania. Irish immigrants 
came in large numbers after the 1830's and through the famine 
years. By the 1870's, Philadelphia was known as the workshop of 
the world. That workshop was staffed and fueled by an influx of 
immigrant and migrant labor, Italians, Poles, Greeks, Eastern 
European Jews, Slovaks, Russians and others, as well as Black 
migrant labor from the South. Philadelphia's Chinatown got its 
start also in the 1870's, when laborers were recruited from the 
west to work in laundries in New Jersey and Philadelphia.
    As you know, immigration slowed as it did across the 
country after 1924. Legislation imposed quotas on new arrivals. 
Philadelphia during that time witnessed renewed migration from 
the South, from the African-American South, and immigration was 
revived again in the post-World War II period, with migration 
from Puerto Rico and an expanded Chinese community. Nineteen 
sixty-five was a major turning point when immigration 
restrictions were removed, and African, Asian, and Latin 
American immigrants came in large numbers for the first time.
    Immigrant communities formed in Philadelphia after this 
change are Koreans, South Asians, Southeast Asian refugees from 
Cambodia, Vietnam and Laos, and Africans as well as Latino 
immigration and migration which continued unabated during this 
period, and now incorporates a new diversity in the Latino 
community with the settlement of Dominicans, Mexicans, 
Colombians, Peruvians, Venezuelans, Hondurans, Guatemalans and 
others.
    Well, where does the Historical Society fit into all of 
this? It's a very old historical society. We've been around 
since 1824. But especially since our merger with the Balch 
Institute for Ethnic Studies 2 years ago, we are very committed 
to preserving and exploring the origins, diversity and 
development of Philadelphia, Pennsylvania and the Nation. We've 
refined our strategic plan somewhat. We are not necessarily 
focusing on the general public per se, but we want to serve as 
an important resource for researchers, including genealogists, 
educators, historic site interpreters, historic 
preservationists and what we call community history groups, 
interested people in local communities who are interested in 
preserving and representing their own histories.
    We do this through conservation and preservation of 
documents and graphics and providing access, of course, to 
those materials. We don't maintain a museum or historic site, 
but seek through those resources to be an important resource 
for the interpretation of such sites.
    Since 1997, the Balch Institute for Ethnic Studies, which 
as I said is now part of HSP, has been specifically involved in 
documenting the most recent histories of immigration to the 
Philadelphia area. To date, we have worked with South Asian, 
Arab, African, Latino and Chinese communities, and we have 
plans to work with Korean and Southeast Asian communities in 
the coming few years. Our goal in these projects has been to 
build our institutional knowledge base as well as our archival 
collections through the documentation of immigrant life.
    In each case, we work closely with the community, we spend 
a couple of years doing ethnographic field work with that 
community. We document community life through photographs, oral 
history interviews, field notes, and we collect a lot of 
ephemera, flyers, broadsides, newsletters, stuff that gets 
generated in the community that ultimately does document the 
activities of that community. We take a lot of photographs and 
interview community residents. Invariably, we uncover much more 
interesting stories than we have resources to document in 
detail, because this is of course all based on limited 
foundation and other grant money.
    We encourage the community members to considering donating 
their papers to the archives at some point. We have seen some 
donations of this sort, but we hope there will be much more in 
the future. These materials will provide valuable resources to 
future historians and others seeking to understand the 
experiences of immigrants and the enormous changes that our 
society and culture has seen in the late 20th century and 
beyond. They join our already rich archival collection, which 
documents and represents earlier waves of European immigration. 
We have an unrivaled collection of ethnic newspapers, for 
instance, as well as papers, photographs and graphics which 
represent over 80 ethnic groups. This is in the Balch Institute 
collection.
    We've also found that many times the histories we uncover 
throughout ethnographic and archival work with recent immigrant 
communities reveal much longer histories of global presence in 
our locality. Researching the recent history of Latinos, for 
instance, we discovered that the history of the Latino presence 
in Philadelphia dates back to the 18th century. Philadelphia's 
trade with Cuba, the Latin American revolutionaries lived in 
exile in Philadelphia, as well as New York. But we were more 
interested in Philadelphia for our purposes.
    And we also found evidence that Mexican braceros had worked 
on the Pennsylvania Railroad during World War II. This history 
wasn't known by us at the Historical Society, and it wasn't 
known by the community. They were very excited to learn about 
that. So Philadelphia is a lot more diverse historically than 
even we knew. These histories become very important in 
validating, especially for recent arrivals who want to see 
themselves as part of the American story.
    Our experience suggests that it is absolutely critical to 
involve immigrant community organizations, businesses and 
residents in the inclusive documentation and interpretation of 
the site or story in their own voices and from their own 
perspectives, especially because the histories of such 
communities often suffer, either historically or in the present 
day, from negative stereotyping or from what we would say is 
the kind of fragmentation of the historical record. There's 
just sometimes not that much there.
    So in our projects, we want to work closely with 
communities, so they have a hand in drafting the research that 
we do and also the interpretation that we generate. We do all 
this work in a context in which the colonial founding narrative 
dominates most of the preservation and interpretation 
activities in Philadelphia, and where there are missed 
opportunities and numerous challenges for this work.
    Currently a lot of immigration history, even in a city as 
historical as Philadelphia, often languishes unpreserved or 
under-interpreted. A lot of historic structures have been 
restored. You mentioned Gloria Dei Church, which of course is 
very important, and other churches have been restored. There 
are a lot of historical markers all over the place.
    But there's a couple of problems with this. One is that 
historical marker programs don't always include sites that are 
of particular interest for immigration history which may not be 
of statewide or national significance, because they are just 
part and parcel of the everyday life of working people. In some 
cases, structures have disappeared entirely. So the historic 
landscape is very fragmented. Even where there are markers, 
markers don't necessarily ensure that there is preservation. So 
we need to preserve the structures, as well as the stories, 
images and documents of these communities.
    Also I want to point out that historically, immigrants, and 
even now, often inhabit urban worlds that have not been thought 
worthy of or fit for preservation. These neighborhoods often 
change, particularly in large cities like Philadelphia. They 
can become blighted or subsequently gentrified. Previous 
generations of residents can be pushed out, which we saw 
historically with the Latino community in Philadelphia. Its 
original site of settlement, there's a historic church there, 
but most of the neighborhood now is gone as a Puerto Rican 
neighborhood. It's been gentrified as the ``art museum'' area.
    And also in these communities, informal networks, oral 
tradition are often very important. So we like to do oral 
history. Because a lot of this stuff only survives in people's 
personal memories or in their family stories. Finally, some of 
these communities suffer from a lack of resources that make 
historic preservation difficult. I mentioned North Philadelphia 
in my statement. This is an area of the city which was an 
industrial powerhouse in the 19th century, a lot of African-
American laborers lived there. A lot of immigrant laborers 
lived there. And now the famous Philadelphia row houses are 
decaying, the factories are abandoned. This area is adjacent to 
an early 19th century immigrant neighborhood which is likewise 
adjacent to a former immigration station, which is now a Dave 
and Busters.
    So there's a kind of a sense that you could create a kind 
of heritage trail of immigration in some of these 
neighborhoods. But the infrastructure just isn't there. And the 
people who live there don't necessarily have the resources to 
generate this themselves. Also in some cases, the people who 
live in these neighborhoods are not the same ethnic group or 
the same group that lived there 200 years ago. So I think we 
also want to be aware of what's getting preserved, for whom, 
whose story is being told and what is the impact on existing 
residents.
    I've gone way over my time, so I thank you for your 
patience and for your interest in this important topic, and I 
look forward to your questions.
    [The prepared statement of Ms. Wilson follows:]

    [GRAPHIC] [TIFF OMITTED] T6945.047
    
    [GRAPHIC] [TIFF OMITTED] T6945.048
    
    [GRAPHIC] [TIFF OMITTED] T6945.049
    
    [GRAPHIC] [TIFF OMITTED] T6945.050
    
    [GRAPHIC] [TIFF OMITTED] T6945.051
    
    [GRAPHIC] [TIFF OMITTED] T6945.052
    
    [GRAPHIC] [TIFF OMITTED] T6945.053
    
    Mr. Souder. One of the discussions we've had with our 
legislation is that it's hard to get your arms around how to 
tackle something, particularly from the Federal level. I'm more 
convinced of that than when I started. So I don't know whether 
I've advanced my encouragement or my discouragement.
    But let me start with a couple of basic questions. Because 
in your testimony, you've kind of expounded on a number of 
these, so let me start with Angel Island first, going back to 
that. I talked to Congresswoman Woolsey on the subway as we 
were going over to vote, and I told her I'd go on her bill. But 
one of the fundamental questions, because of the Federal 
guidelines as far as how much we're allowed to put into a given 
project, because it's not Federal, because when we take the 
Federal tax dollars and put it into a State controlled park, 
usually you have to have some sort of either a joint operating 
agreement or a part of that park. In the Indiana Dunes National 
Lakeshore, a portion of it is a State park, the U.S. park is 
around it. That way there's Federal money invested, but in 
addition, there's State money. And where the main beach and the 
beach house is, where there's revenue to be generated, the 
State has that portion. They didn't want to have that become 
part of the Federal park, because it was a revenue generator.
    I know when the peopling bill first came up, ironically, I 
think the Angel Island both became an advantage and a stumbling 
block with this bill, much like I was doing one on the 
northwest territory in the Great Lakes area, and Mackinaw 
Island decided, the State of Michigan was afraid we were trying 
to seize Mackinaw Island for the Federal Government, when the 
bottom line is, because it used to be a national park, they 
turned it over to the State. It's like, we really don't need 
more things if the State wants to run something.
    But in the case of Angel Island, I think Senator Akaka 
realized that was a site that was very important as well. And 
it focused, and California immediately became concerned that we 
were trying to take over Angel Island from the State park 
system. Now, bluntly put, California hasn't exactly invested 
much money in maintaining these buildings. That's why they 
became on the endangered list. You said you have a bond out 
there now for $15 million, and you have a plan to do that. In 
your opinion, are they continuing to deteriorate, will the 
deterioration continue at such a rate that they're going to 
fall down before the project gets done, can the State do that 
alone, or is the State, and your group in particular, as a 
private sector foundation, are you open to working some kind of 
partnership with the Federal Government?
    Ms. Toy. We are very open to doing that. In fact, with 
Angel Island, with our Foundation, with California State Parks 
and the National Park Service, had signed a three-party 
agreement that we understand to be very unusual in that it 
included a State entity, a Federal entity, and a nonprofit 
foundation, and that was to do the original preservation 
studies for Angel Island, and there were both Federal, State 
and private funds involved in that. And State parks and the 
National Park Service I'm sure, as you know, have cooperated 
quite often, particularly in northern California, with Redwoods 
Park, with Muir Woods and Mount Tam, with a number of sites in 
the Golden Gate National Recreation Area. And we work very 
closely with the GGNRA, superintendent Brian O'Neill out there 
and so forth.
    So I think the interest in everyone is to see the site 
preserved and know that it is of value to everyone involved, 
whether it would actually be Federal or State owned property. 
But there definitely I think is an intention and willingness by 
all parties, and while I can't speak for the California State 
Parks or the National Park Service, certainly in our work 
together that has been well articulated.
    Mr. Souder. If the Federal Government portion was invested 
in a major building or say, two or three buildings where the 
Federal Government took over the rehab, or a visitor center, 
which is less likely, because those are often cooperative, or 
even like in Philadelphia, where you have multiple cooperative 
things there on the mall, do you think there would be 
resistance from your foundation or from the State if the 
Federal Government operated those buildings within a State 
park? I don't know what the rules are.
    Ms. Toy. Not from our foundation. And I certainly can't 
speak for California State Parks, but I do know that the 
director of State Parks will be speaking to Mr. O'Neill about 
this issue very shortly, about how they can cooperate together 
and under what arrangement. I know that the willingness is 
there to look for creative ways in which all of this can be 
done.
    Mr. Souder. Because this is a compelling national site that 
cannot be lost. In other words, we can debate about relative 
things and one of the most difficult things is to make these 
judgments about what's a national story, what's a regional 
story, what's a State story, what's a local story. Sometimes 
what's a local story, if it's a non-powerful group that has no 
other means to jump to a national level, you pick that not 
because it is nationally significant, but because it represents 
a type that's national significance.
    In other words, we may say Fell's Point may not be more 
significant than any other neighborhood of this type or group, 
but we don't have anything in our national perspective where 
you can go and see an example like that. It could be a slave 
quarters at some area where you decide to interpret that. It 
could be interpreted at any 1 of 100 sites, but you say, look, 
in the national system we need one like this, not that this is 
particularly unique, it's more emblematic. You don't preserve 
every one.
    Part of the problem, I'm on the Indiana landmarks board, is 
when you say we're going to save every bridge, pretty soon you 
save no bridges because you're trying to save every bridge, and 
then you lose credibility with the general public that says, 
we're not going to save every bridge. And how to balance that, 
because every group thinks their thing is the most important, 
and pick that as one of the things I would like your input as 
we move forth.
    But clearly, Angel Island is undisputed. So finding a way 
to do that, I know that Brian O'Neal is very familiar with 
Boston Island. But you might look at that, which is the worst 
example in the park system as a park, because the Federal 
Government doesn't own any land, yet it's called the Boston 
Islands National Park Area. So it's the most confusing thing, 
and Brian was running as a consultant to them, because they 
were a mess trying to figure out how to do it. He's had a lot 
of success at Golden Gate.
    But I think in order to move a bill and to get more 
attention on it, we can continue to try to get attention on 
Angel Island. But so many dollars have been poured into Golden 
Gate that there are actual limitations in some appropriations 
bills. In the Resources Committee, some of them go purple every 
time it comes up over in the Parks Committee. Nevertheless, 
somehow this got left out when we were doing the Presidio, 
which was really the costly money pit. Do you know the 
Presidio?
    Ms. Toy. Our office is in there.
    Mr. Souder. Golden Gate has 8 percent of all the historic 
structures in the entire National Park Service, 8 percent in 
one park. So it has been an incredible challenge, and yet here 
we are with Angel Island sitting there deteriorating.
    Now, let me ask one other thing. As I understood from your 
testimony, it wasn't just Chinese who came through. All groups 
came. Was it the primary station on the west coast for all 
groups or just for Asian?
    Ms. Toy. There were groups from all over the world who came 
to Angel Island Immigration Station. We see in the photographic 
records people from, we know there were 60,000 Japanese 
immigrants, including about 20,000 picture brides. And Korean 
immigrants, South Asian, mostly Punjabi Sikhs, Filipino 
immigrants, immigrants from Latin America, we have photographs 
of Italian immigrants there, Russian immigrants who came out 
across the Pacific, particularly after the Bolshevik 
Revolution. Even pictures of people who look to be East 
African. So really it was some place that was a destination 
for----
    Mr. Souder. U.S. Government operated, not like what we're 
talking about at Fell's Point----
    Ms. Toy. Correct.
    Mr. Souder [continuing]. Where it was a private sector 
steamship operator.
    Ms. Toy. No. It was operated by the U.S. Immigration 
Service and by the U.S. Public Health Service.
    Mr. Souder. Was there a similar thing in Los Angeles and 
Seattle?
    Ms. Toy. There was something down at San Pedro, I believe, 
and in San Diego. But certainly Angel Island was the largest. 
There was also some operation in Seattle.
    Mr. Souder. OK.
    Ms. Toy. The reason why it gets tied to Chinese exclusion 
is that was the reason it was built.
    Mr. Souder. Right.
    Ms. Toy. And those are the poems that are on the walls.
    Mr. Souder. Yes. And because, what I was talking to 
Congresswoman Woolsey about is that it's partly on your watch, 
in the sense that she is the Congresswoman from that area, or 
were in Congress at this point, is that as Asian population 
increases in the United States, and let's take 50 years from 
now, you don't want them looking back and saying, who let them 
fall down? Now we would like to have that. That's the Ellis 
Island. Who let that fall down? Why wasn't that taken care of 
when we could take care of it?
    And particularly when you see them merging large groups and 
you have clearly defined the most significant site, you kind of 
go, what's wrong here. And like you say, it's got a checkered 
history, but that's part of the history as well. And we've 
preserved some sites in California relative to all sorts of 
kind of abuse of Chinese citizen rights and others, Japanese 
citizens in particular, like in the gold mining areas and all 
sorts of things like that.
    Mr. Cummings, do you have comments?
    Mr. Cummings. I'll be very brief. First of all, I want to 
thank you all for being here. I was watching your testimony in 
the room over here.
    Ms. Von Karajan, I just want to ask you a few questions 
about the support that you've gotten from the Park Service, if 
any.
    Ms. Von Karajan. To date, we've not received any. We've 
only really gone into a mode where we've been seeking funds 
over the course of the last year. We have had funds from the 
Maryland Heritage Area Authority. We have Fell's Point but not 
Locust Point. Fell's Point was just, its designation was just 
approved as a Chesapeake Bay Gateway, through that program, 
which is a National Park Service program, relatively new, only 
about 4 years old.
    So we just submitted a grant to them last Friday to begin 
doing some work. But we've received none, but in fairness to 
the National Park Service, I'd have to say, nor have we 
solicited it, because we had to go about putting our program 
together, if you will, and that took some organizational time 
to do. When Ron Zimmerman first began this program, he saw it 
basically as a museum that he would put at Locust Point. That 
idea has expanded considerably in that the process of expanding 
that has meant that we really didn't go out and do a lot of 
fundraising until just this past year.
    Mr. Cummings. Do you anticipate that you will make requests 
of the Park Service? And do you see a way that they can help 
you?
    Ms. Von Karajan. I definitely do. I definitely have high 
hopes for the Chesapeake Bay Gateway. It's a program that talks 
about the Chesapeake Bay, certainly if you came in in Baltimore 
you came through the Chesapeake Bay. I believe that we will 
benefit indirectly considerably from the trail that will be, I 
believe, we hope will be signed into effect this year for the 
Star Spangled Banner Trail, for the War of 1812 Bicentennial.
    But at this particular moment there isn't really any one 
category that our program seems to fit into. In a sense, we're 
almost more comfortable with initiatives like We The People and 
the National Endowment for the Humanities. At this point in 
time, the National Park Service, there just hasn't been 
anything that fits what it is that we've been trying to do at 
the Park Service level that I'm aware of and that our group has 
been aware of. There may be things, but we just, if there are 
we've not known.
    Mr. Cummings. What about you, Ms. Wilson? Have you gotten a 
lot of assistance from the Park Service, if any?
    Ms. Wilson. We don't get assistance from the Park Service, 
no. Although we are partnering with them, we hope, this fall on 
a symposium regarding the new President's House, which they're 
working on an interpretation of. I'd say traditionally in 
Philadelphia, the Park Service, Independence National Park 
itself has kind of been an animal unto itself and there hasn't 
necessarily been a great deal of collaboration even, let alone 
support for other historical activities. And yet that park 
pretty much dominates the agenda of other historical activities 
in a lot of the city.
    So we think this is some progress. I don't know if you 
know, but in Philadelphia in the last year or so, Independence 
National Park has come under a lot of fire for its 
interpretation of the new Liberty Bell site, and community 
groups, mostly African-American organizations in the city, 
organized and confronted Park Service people, much to their 
discomfort. It was kind of a fiery encounter. But they did get 
some concessions on having a narrative about slavery 
incorporated into that site.
    So now we think it's at least a positive sign that the Park 
Service is interested in initiating the civic engagement 
discussion with these groups again over the interpretation of 
slavery at the President's House site. We will be a partner in 
that program. But that's been about the extent of it, quite 
frankly. I think in Philadelphia, too, I talk about the 
fragmentation of the historical landscape, you could talk about 
the fragmentation of the historical interpretive landscape as 
well. There's a lot of history organizations in Philadelphia. 
We don't always work together in the way we should.
    Mr. Souder. If the gentleman will yield for a second.
    Mr. Cummings. Sure.
    Mr. Souder. We have an unusual thing in Philadelphia, 
because on top of Independence National Park, they put the 
Constitution Center in, and overrode the normal process of 
funding that. So I worked with Congressman Pataki as we were 
trying to get a small amount in for the education institute 
that was supposed to go in between there for interpretation. 
And the Appropriations Committee had written in a clause that 
Philadelphia can receive no more money in historic 
preservation, because they had gotten so much disproportionate 
for a number of years, because the Constitutional Convention 
building got $10 million, $5 million in two straight 
appropriations bills, plus Independence Park. Philadelphia is a 
very historic city, but because of that, we may be able to do 
some more down the road.
    But that's the type of thing that happens when you get one 
big project in, it becomes like Golden Gate over in San 
Francisco or like the Constitution Center, then Congressman 
Cummings' district and my district don't get anything, and then 
we try to balance that out a little through the appropriations 
process, too.
    Mr. Cummings. That's all I have. Thank you all very much.
    Mr. Souder. I would appreciate if you all can do some 
additional brainstorming. Part of the problem is that each of 
you get very immersed, and we can't build even a national 
historic--if you lose your local properties and you lose the 
individual local stories, it's hard then to develop a larger 
story. All of a sudden something that looked not significant, 
when you get lots of the little pieces together or something 
that seems significant in one given era, 50 years later we 
decide, oh, this is what was significant about that era and 
then we don't have any of the documentation.
    At the same time, being at the national level, we're 
looking most at things of national significance. But we need to 
watch the pieces as well. As we develop this bill, I've been 
trying to figure out, OK, how can we narrow the scope and what 
types of things we do. For example, we need to find out, you 
referred to a parks program that you were applying to, Ms. Von 
Karajan.
    Ms. Von Karajan. The Chesapeake Bay Gateways Network. It's 
only about 4 years old. It is a National Park Service program. 
You have to submit a nomination form to it. It's a very----
    Mr. Souder. Is that an immigration in the Chesapeake area?
    Ms. Von Karajan. No, I think it's actually an 
extraordinarily good program. They're looking at cultural, 
environmental, ecological.
    Mr. Souder. Anything to do with the Chesapeake region?
    Ms. Von Karajan. The bay is what organizes, it has sites in 
Maryland and Pennsylvania and Delaware, wherever the bay is. It 
includes, I think Fell's Point was designated as a district, 
Cape Charles, which is in 1812, is the only other historic 
district. But I think they have an Indian reservation and they 
have a number, they have some vessels like the Sultana, the 
Pride of Baltimore.
    Mr. Souder. Well, it's important in working with the Parks, 
one of the things I've been trying to do is push them into 
thematic structures.
    Ms. Von Karajan. Very good.
    Mr. Souder. It's like the Chesapeake, like Lewis and Clark, 
like Underground Railroad, like Presidents, like the missions 
program. And there can be different things to do with it. But 
in looking at immigration, migration and settlement, one thing 
we could do, because one thing that you raised was, some sites 
aren't even marked. If we had a site identification program 
that just dealt with plaques, in other words, if you do the 
authorization at a certain level, you can have up to a minimal 
amount and have people submit into the Federal Government, that 
would be something we could include in a park and say, this has 
to deal with either an immigration, you'd have to make your 
submission based on either immigration, migration and 
significance, or uniqueness. That may be the other word to use, 
significance and/or uniqueness, or symbolism of a larger 
category.
    We need to find out what NEH does on the We The People and 
stuff on basic research. Because some of it may be just trying 
to stimulate some basic research. Another part could be, and I 
wondered how you'd react to this, if the Federal Government 
said, these are our gaps in the immigration story, and we've 
looked through the register and we've looked through the 
landmarks and we've looked through our recreation areas, these 
are gaps we have. This group of people isn't being covered in 
proportion to the different sites. And in effect, did a grant 
announcement seeking, OK, who's got anything that meets the 
gaps in this category in immigration, this category in 
migration, this category of this, and had a certain percentage 
of their funding that gave a priority to that type of 
structure.
    If you can, having worked at the field, what types of 
things could we do, understanding that it may or may not be 
something you're directly working with, but thinking now as 
somebody in that field, if we're trying to identify what's 
significant for American history, not our own personal 
interests, but what's significant for American history that 
it's there and included, how do we make sure that the next 
generation has identified and has a reflection of not just the 
oddities or just the most extraordinary, but the actual 
diversity of the country.
    And that's part of our challenge. It's not just minority 
views, it's majority and minority. But it's not just the 
majority, it's also the minority. It's emerging minorities 
before their sites are lost. And to me, this is a big 
challenge. We just need some people to help us think this 
through and how better to target. If you have any final 
comments.
    Ms. Wilson. I would just observe that there's a huge 
industrial heritage in Pennsylvania. There are heritage areas 
that have been declared in other parts of the State, not 
Philadelphia, but the western part of the State, where there 
was a huge, immigration of course is a huge part of that story. 
I didn't see any Pennsylvania parks on the National Park 
Service list. But that's something I would think that's, 
there's already a huge groundswell at the local level.
    Mr. Souder. Another possibility would be to have these 
things interpret inside existing sites and have a small grant 
program for somebody to develop, like in the oil heritage area 
region, or in Fort Wayne, what brought the Germans into our 
area were the railroads. I'm sure that was true a lot in 
Baltimore as well. But that's a good idea, inside the heritage 
areas, which is the fastest growing category.
    Anything else?
    Ms. Toy. I do know at Lowell, I think it has some other 
designation, but the designation, up at the Lowell site is 
quite interesting.
    Mr. Souder. That's a national historic park. Actually it's 
called National Industrial Park.
    Ms. Toy. Something like that. But the industrial heritage 
in the tide of immigration is certainly very closely linked. I 
think they do some fabulous programming up there.
    I do say that I really support your efforts, particularly 
to look at the issue of having the Federal Government or the 
National Park Service or whatever the entity is take a 
proactive step into looking out there and identifying these 
gaps in our national story. It shouldn't be that groups like 
ours have to advocate for 20 years to make sure the site which 
was originally slated by California State Parks to be 
destroyed.
    In fact, we had some Julia Morgan designed staff cottages 
be burned for the Robert Redford film, the Candidate. And that 
shouldn't be the case. We shouldn't have to fight this hard to 
have this kind of heritage preserved and to have at the 
national level, to have a Federal entity come down and say, you 
know, we value your history, it is important. That validation 
itself speaks volumes to our communities.
    Mr. Souder. Well, thank you very much. Any additional 
comments you have will be appreciated.
    With that, the hearing stands adjourned.
    [Whereupon, at 5:25 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T6945.054

[GRAPHIC] [TIFF OMITTED] T6945.055

[GRAPHIC] [TIFF OMITTED] T6945.056

[GRAPHIC] [TIFF OMITTED] T6945.057

[GRAPHIC] [TIFF OMITTED] T6945.058

[GRAPHIC] [TIFF OMITTED] T6945.059

[GRAPHIC] [TIFF OMITTED] T6945.060

[GRAPHIC] [TIFF OMITTED] T6945.061

[GRAPHIC] [TIFF OMITTED] T6945.062

[GRAPHIC] [TIFF OMITTED] T6945.063

[GRAPHIC] [TIFF OMITTED] T6945.064

[GRAPHIC] [TIFF OMITTED] T6945.065

[GRAPHIC] [TIFF OMITTED] T6945.066

[GRAPHIC] [TIFF OMITTED] T6945.067

[GRAPHIC] [TIFF OMITTED] T6945.068

[GRAPHIC] [TIFF OMITTED] T6945.069

[GRAPHIC] [TIFF OMITTED] T6945.070

[GRAPHIC] [TIFF OMITTED] T6945.071

                                 <all>

</pre></body></html>
